XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7662
Facsimile: (916) 324-2960

E-Mail:

Melissa.Lipon@doj.ca.gov

September 4, 2020

Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Johnson v. California, Case No. 20-5085
Request for 2nd Extension of Time

Dear Mr. Harris:
This office represents respondent State of California in the above-captioned case. The
petition for a writ of certiorari in this case was filed on July 10, 2020. Respondent has
previously received one 30-day extension for its response to the petition, and the response is
currently due on September 16, 2020. Pursuant to Rule 30.4, respondent respectfully requests
that the time for filing a response to the petition be extended by thirty days, up to and including
Friday, October 16, 2020. A member of primary counsel’s immediate family suffered a
significant illness during the last month. In addition, the drafting and review process has taken
additional time because attorneys and support staff are primarily working remotely, due to the
ongoing COVID-19 pandemic. Counsel for petitioner does not oppose the extension request.
Sincerely,
/s/ Melissa Lipon
MELISSA LIPON
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Andrew Charles Shear, Attorney for Petitioner

